FEC -- Semiannual Report:  Executive Summary (3/96)
Federal Election Commission
Office of Inspector General -- Semiannual Report
Period ending March 31, 1996
If you require the entire printed version of this report, contact the Office of Inspector General, Federal Election Commission, 999 E Street, NW, Washington, DC 20463 or call Dorothy Maddox-Holland, Special Assistant, phone: (202) 694-1015, fax: (202) 501-8134, or e-mail: dmaddox@fec.gov.
Executive Summary
This report is submitted pursuant to the Inspector General Act of 1978, as amended, and includes a summary of the Office of Inspector General's activities for the period October 1, 1995 through March 31, 1996.
Three audits were started during this reporting period.  The compliance audit of the Government in Sunshine Act was completed and released.  We found the agency to be in compliance with the key administrative provisions of the Act.  This audit is discussed in further detail in the audit section of this report.
Fieldwork was completed on the two remaining audits.  The exit conference was held and draft report given to the auditee during this reporting period on one of the audits.  Once comments have been provided that report will be released.  The exit conference remained to be scheduled on the remaining audit, but will be held during this next reporting period.  This audit will also be released during the upcoming reporting period.
No new investigations were opened during this reporting period.